                                                                                 -~-

                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGA nONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-09070035                                                                      Page 1 of 1



         This investigation was opened in response to an allegation that an institution 1had
         misappropriated resources from an NSF funded center2 that was co-located at the institution. A
         review of an NSF award3 to the center and interviews of former employees found no evidence to
         support the allegation.

         In light ofthe above, no further investigative effort is necessary in this matter.

         Accordingly, this case is closed.




NSF OlG Fonn 2 (11102)
